                                   AUDIT




 U.S. DEPARTMENT OF THE INTERIOR’S
 CLIMATE CHANGE PROGRAM:
 LANDSCAPE CONSERVATION
 COOPERATIVES




Report No.: ER-IN-MOA-0015-2011   June 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum
                                                                                JUN .2 7 2013

To:            Rachel Jacobson
               Acting Assistant Secretary, Fish and Wildlife and Parks

               Michael L. Connor
               Commissioner, Burea

From:          Mary L. Kendall
               Deputy Inspector Genera

Subject:       Final Audit Report - U.S. Department of the Interior's Landscape Conservation
               Cooperatives
               Report No. ER-IN-MOA-0015-2011

        This memorandum transmits the results of our audit of the U.S. Department of the
Interior's landscape conservation cooperatives (LCCs). LCCs are largely managed and funded by
the U.S. Fish and Wildlife Service (FWS) and serve as the front line for activities related to
climate change. Bureaus, chiefly FWS, work through the LCCs to distribute Federal dollars as
discretionary grants and cooperative agreements. We performed our audit to determine if
financial assistance awards, specifically grants and cooperative agreements, for LCCs are being
properly awarded and effectively managed.

        Specifically, we found areas of concern with respect to the management of grants and
cooperative agreements at FWS that could potentially place millions of dollars at risk and
jeopardize future funding and support for the LCCs' activities. For example, we identified issues
related to the effective implementation of internal controls, the selection and awarding of
financial agreements through fair and open competition, as well as oversight and control of
LCCs.

        In our report we provide 15 recommendations to FWS to strengthen the management of
grants and cooperative agreements associated with LCCs. Based on FWS' response to the draft
report (see Appendix 6), we made modifications to a number of our original recommendations.
We consider one recommendation resolved and implemented and the other 14 resolved but not
implemented (see Appendix 7). No further response to the Office oflnspector General on this
report is necessary.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.




                               Office of Inspector General I Washington, DC
         We appreciated the cooperation and assistance of the FWS and Bureau of Reclamation
staff. If you have any questions regarding this report, please call me at 202-208-5745.




                                              2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      Overview of Climate Change Program ........................................................... 2
      Grants Management Performance Problems ................................................... 3

Findings................................................................................................................... 5
   Selection and Awarding of Financial Assistance Agreements............................ 5
      Inadequate Public Notice and Competition ..................................................... 5
      Incorrect or Questionable Procurement Activities .......................................... 7
      Potential Conflict of Interest and Absence of Sole-Source Justification......... 8
      Inaccurate or Poorly Determined Risk Analyses ............................................. 8
      Inadequate Budget Analysis and Proposals ................................................... 10
   Internal Controls and Documentation ............................................................... 11
      Inconsistent and Ineffective Use of DOI Financial Assistance Agreement
      Review Sheet ................................................................................................. 11
      Insufficient Documentation ........................................................................... 12
      Incorrect Program/Funding Citations ............................................................ 14
      Inadequate Determination and Findings Statements ..................................... 14
   Oversight and Control of LCCs ........................................................................ 15
      Insufficient Coordination between Program and Grant Officers at LCCs .... 15
      Absence of Adequate Grants Management Training .................................... 16
   Promising Practices ........................................................................................... 16

Conclusion and Recommendations ....................................................................... 18
   Conclusion......................................................................................................... 18
   Recommendations Summary............................................................................. 18

Appendix 1: Scope and Methodology................................................................... 27
   Scope ................................................................................................................. 27
   Methodology ..................................................................................................... 27
   Limitations ........................................................................................................ 28

Appendix 2: Sites and Office Visited or Contacted .............................................. 29

Appendix 3: Grants and Cooperative Agreements Reviewed .............................. 30

Appendix 4: Listing of Documentation Deficiencies ........................................... 33

Appendix 5: Questioned Costs.............................................................................. 35

Appendix 6: U.S. Fish and Wildlife Service Response ........................................ 36

Appendix 7: Status of Recommendations ............................................................. 46
Results in Brief
The U.S. Department of the Interior (DOI) oversees a Nationwide network of 22
landscape conservation cooperatives (LCCs) that collaborate across National and
international jurisdictions. LCCs were created to leverage resources and
encourage science-based inquiries to respond to landscape-level stressors,
including climate change. DOI set aside $88.3 million for fiscal years (FYs) 2010
and 2011 to support LCC staffing, science, and operational needs. A major
vehicle for addressing science needs is financial assistance in the form of grants
and cooperative agreements. These financial assistance awards are subject to the
same requirements as other financial assistance awards made by DOI.

The Office of Inspector General (OIG) audited 6 of the 22 LCCs, based on
operational maturity and logistical considerations. For the six selected LCCs, OIG
reviewed all grants and cooperative agreements completed after their
establishment and covering FYs 2010 and 2011.

We found areas of concern that place millions of dollars at risk. These findings
may raise public concern, which could impact support for this valuable work.
These areas included the selection and awarding of financial agreements through
LCCs; ineffective implementation of internal document controls; inadequate
public notice; questionable relationships between LCC coordinators and grant
recipients; insufficient training of key personnel responsible for grants
management and operational aspects of LCCs; and questioned costs. These issues
were primarily limited to LCCs managed by the U.S. Fish and Wildlife Service
(FWS). Our audit did not assess the quality of the science, decision support tools,
and other products resulting from the financial assistance processes, and we found
LCCs to be a highly valuable conservation approach to addressing large-scale
challenges and stresses to our natural resources. These findings represent the
conditions at the time of our fieldwork and do not reflect any corrective actions
taken after that time.

Our audit provides FWS with significant opportunity to take an early look at
administrative practices associated with grant management activities. The
findings from this audit should help FWS increase awareness of areas for
potential improvement.

We provided 15 recommendations in our draft report to improve the management
of financial assistance awards. In its response to the draft report, FWS generally
concurred with the recommendations and provided information on actions taken
after our fieldwork was completed to partially address the issues identified in our
report. We modified or clarified several recommendations from our draft report
based upon FWS’s responses. We consider one recommendation resolved and
implemented and the other 14 resolved but not implemented.




                                                                                  1
Introduction
Objective
Our objective for this audit was to determine if funding for landscape
conservation cooperatives (LCC) is being properly managed (see Appendix 1).

Background
Overview of Climate Change Program
The U.S. Department of the Interior (DOI) has an obligation to work with its
partners to address climate change and other landscape scale impacts on
America’s natural and cultural resources. Secretary Salazar signed Secretarial
Order 3289 on September 14, 2009, and amended it February 22, 2010, titled,
“Addressing the Impacts of Climate Change on America’s Water, Land, and
Other Natural and Cultural Resources.” The document coordinated the application
of scientific tools to increase understanding of climate change and determine an
effective response to its impact on tribes and on land, water, ocean, fish and
wildlife, and cultural heritage resources managed by DOI.

In support of the Secretarial Order, as the largest land manager in the United
States, DOI has established and uses 8 climate science centers (CSCs) and 22
landscape conservation cooperatives (LCCs) as vehicles through which to address
climate change and other ecological stresses. The CSCs and LCCs were created to
collaborate across organizational boundaries to address different aspects of
climate change. The CSCs are primarily funded by the U.S. Geological Survey
(USGS), whereas the LCCs are largely managed and funded through the U.S. Fish
and Wildlife Service (FWS). 1

CSCs provide tools and techniques that natural and cultural resource managers
may use to anticipate, monitor, and adapt to climate-driven change at all
ecological levels, including National, regional, and local. CSCs provide LCCs
with climate change data impacting natural and cultural resources.

Paired with CSCs, the 22 LCCs focus on the landscape level that involves broad-
scale interconnected ecological systems. These systems cross Federal, State, local,
private, and tribal boundaries. LCCs are applied conservation science partnerships
with two main functions. The first is to provide the science and technical expertise
needed to support conservation planning at levels beyond the reach or resources
of any one organization. The second function is to promote collaboration among
their membership to define shared conservation goals. With these goals in mind,
partners (Federal, State, local, tribal, and nonprofit organizations; private
landowners; and educational institutions) can identify where and how they will
1
 FWS is the lead for 18 LCCs, U.S. Bureau of Reclamation for 2 LCCs, Bureau of Land Management for 1
LCC, and USGS for 1 LCC. In FY10, the first 9 LCCs were initiated. In FY11, another 8 LCCs initiated
operations..




                                                                                                       2
take action, within their own authorities and organizational priorities, to best
contribute to the larger conservation effort.

Each LCC is guided by a steering committee with members drawn from all
partnership levels. The size and composition of steering committees vary, and
additional committees and groups are established by LCCs as needed (e.g.,
technical committees to review proposed research projects). LCC permanent staff,
however, includes an LCC coordinator and a science coordinator at a minimum.
DOI generally funds operational costs (e.g., office space and equipment) and staff
salaries.

Bureaus work through the LCCs to distribute Federal dollars as discretionary
grants 2 and cooperative agreements 3 to educational institutions, State agencies,
tribes, and nongovernmental organizations conducting climate change research
and data support initiatives.

Grants Management Performance Problems
The issues we identified during our audit regarding FWS grant management are
not new. Historically we have found grant management to be an area of concern,
particularly with FWS grant processes. Previous internal FWS reviews, as well as
previous Office of Inspector General (OIG) reports, have identified similar
problems. 4

In August 2010, FWS issued a report titled “Financial Assistance Internal Control
Management Review for FY 2010” that summarized its annual review findings at
three of its nine regions. The report, which included an analysis of performance
areas such as organizational alignment and leadership, policies and procedures,
human capital, and knowledge and information management, indicated that
regional offices handle most transactions during the pre-award and funds
obligation stage, but do not communicate with programs during post-award and
closeout. The report noted that there was a lack of coordination between program
and financial assistance staff.

The FWS review also found “critical documentation” missing from official grant
files. The management report stated that these findings reveal a “lack of
transparency in awarding financial assistance.” We noted instances where the lack
of transparency was readily apparent.


2
 A discretionary grant is a financial award for which the Federal awarding agency selects the recipient from
among all eligible recipients; decides to make or not make an award based on the programmatic, technical, or
scientific content of an application; and decides the amount of funding to provide.
3
  A cooperative agreement is an award of financial assistance that is used to enter into the same kind of a
relationship as a grant. It is distinguished from a grant in that it provides for substantial involvement between
the Federal agency and the recipient in carrying out the activity contemplated by the award.
4
  Previous OIG reports include: HI-EV-FWS-0001-2009, “U.S. Fish and Wildlife Service Grants and
Cooperative Agreements in Hawaii and the Pacific Islands” (June 2011); ER-IS-FWS-0017-2009, “U.S. Fish
and Wildlife Service Division of International Conservation” (October 2010); and W-IN-MOA-0052-2004,
“Framework Needed to Promote Accountability in Interior’s Grant Management” (August 2005).


                                                                                                               3
The management report indicated that while regions have adequate staff to
manage financial assistance awards, experience and training in this area is often
limited. Our audit revealed similar findings, echoing FWS’ management report
findings as well as previous OIG reports. FWS did not require corrective action
plans for identified deficiencies, primarily due to various organizational changes
and the anticipated transition to a new financial management system.

Our current findings, as well as previous OIG findings and those identified in the
FY 2010 FWS management review, illustrate an ongoing problem with grants
management activities at FWS. Our audit focused on FYs 2010 and 2011 grants
and cooperative agreements (financial assistance awards) managed by six
LCCs—

   •   Appalachian, North Pacific, and South Atlantic LCCs, managed by FWS;
   •   Southern Rockies LCC, comanaged by FWS and U.S. Bureau of
       Reclamation (USBR);
   •   Great Northern LCC, comanaged by FWS, National Park Service (NPS),
       and U.S. Geological Survey, but with FWS as the source of its financial
       assistance awards; and
   •   Desert LCC, comanaged by FWS and USBR, but with USBR as the
       source of its financial assistance awards.

We reviewed 47 grants and cooperative agreements totaling $6.8 million for FYs
2010 and 2011, an amount representing 7.7 percent of the total LCC funding for
both fiscal years ($88.3 million) (see Appendices 2 and 3).

While all of our findings dealt with FWS grants administration and management,
we note that USBR, comanager of two LCCs, funded projects separately and had
much stronger controls over the financial assistance awards it managed than did
FWS. Of the 47 total awards we reviewed, USBR managed 9.




                                                                                     4
Findings
Our findings revealed several areas of concern regarding grants management that
warrant immediate attention and action by FWS.

In administering grants and cooperative agreements, FWS did not fully meet its
fiscal responsibilities to ensure that climate change funds were used in accordance
with the Office of Management and Budget (OMB) and DOI guidance and
regulations on financial assistance (see Appendices 4 through 7). We identified
problems in key areas, including—

   •   selection and awarding of financial assistance agreements;
   •   internal controls and documentation; and
   •   FWS oversight of LCCs.

We believe that the issues we have identified leave DOI vulnerable not only to
questions of unfair or inadequate public notice but also to issues of favoritism.

Selection and Awarding of Financial Assistance
Agreements
Inadequate Public Notice and Competition
Public competition for Federal funds is intended to help ensure that the U.S.
Government receives the best value for taxpayer dollars, whether such monies are
disbursed through procurement contracts or awarded as financial assistance.
Public notification of competitive funding opportunities also promotes fairness
(both perceived and real) and combats the appearance of favoritism. With only
limited exceptions, OMB memorandum M-04-01 and Departmental Manual (DM)
505 § 2.12 require that synopses of discretionary cooperative agreements and
grant funding opportunities be posted on Grants.gov. The announcement must
contain or reference the requirements for the application and the criteria by which
applicants will be evaluated. When Federal funds are not awarded competitively,
505 DM § 2.14 requires notice of the award to be posted on Grants.gov, including
justification for this decision.

We found that FWS did not comply with their notification and competition
requirements for 36 of the 38 awards we reviewed. In 23 cases, FWS did not post
the funding opportunity on Grants.gov, and in 13 cases, in our judgment, FWS
neither provided sufficient time for applicants to apply, nor sufficiently specified
criteria by which applicants would be evaluated (see Figure 1).




                                                                                    5
                                   Not Posted on         Inadequate Time and
          LCCs
                                    Grants.gov                 Criteria
    Southern Rockies                     7                        0
     Great Northern                     15                        0
       Appalachian                       1                        0
      South Atlantic                     0                        4
      North Pacific                      0                        9
         Totals                         23                       13

Figure 1. Inadequate public notice and competition.

Failure to comply with these requirements and to provide reasonable, sufficient
time for public response diminished FWS’ ability to demonstrate transparent
actions and ran counter to customer service mandates prescribed in OMB and
DOI guidance. For example, rather than posting funding opportunity
announcements to Grants.gov, the Great Northern and Southern Rockies LCCs
used their Web sites to notify the public or provided email notification to alert
interested parties. Once their grant selections had been made, however, they
posted the specific award notifications on Grants.gov.

Public notification of funding opportunities was also problematic at the
Appalachian LCC. FWS awarded a cooperative agreement without competition to
Wildlife Management Institute (WMI), a nonprofit organization, to administer the
Appalachian LCC grants. Under this single agreement with WMI, the
Appalachian LCC posted six funding opportunities on its Web site as contracts.
Four of the six were awarded as grants instead of contracts, totaling $671,801,
while the remaining two opportunities were not funded. None of the six funding
opportunities were posted on Grants.gov. As a result, there was no public
competition for these four awarded grants.

Such a change in identification from contract to grant could have impeded
competition, particularly since potential applicants might have been excluded
from competing because of the absence of a public notice. Because of substantial
FWS involvement and the use of FWS funds, we believe that the funding
opportunities should have been posted on Grants.gov in the interest of
competition and transparency.

The FWS grants officer overseeing this LCC did not consider posting the four
projects on Grants.gov because she regarded them as subgrants and, therefore,
excluded from the Grants.gov posting requirement. Also, the LCC coordinator, as
well as FWS management, could not explain why the projects were posted as
contracts on the LCC site and then funded as grants without public notice when
none of the projects met the Departmental Manual exceptions.




                                                                                    6
We identified other problems with respect to postings on Grants.gov. Although
505 DM § 2 does not mandate a specific time period for posting award
announcements on Grants.gov, the average posting time across the Government is
30 days according to the Health and Human Services (HHS) Grants.gov Project
Management Office, which oversees Grants.gov.

Even where notifications of funding opportunities were made on Grants.gov,
sufficient response time was not always provided. For example, nine projects
funded through the North Pacific LCC were only open for 8 days. Similarly, four
projects funded through the South Atlantic LCC for FY 2011 were only open for
11 days, raising questions about fairness. Although the amount of time available
was more than the minimum of 5 days specified in FWS internal guidance, in our
judgment, the time provided was insufficient, considering the level of detail
required by the application and the Government average of 30 days on
Grants.gov.

Incorrect or Questionable Procurement Activities
According to 31 U.S.C. § 6303, a contract should be used when the primary
purpose of the award is to obtain services for the direct benefit of the
Government. FWS entered into a $2 million sole-source cooperative agreement
with WMI, a private, nonprofit, scientific and educational organization, to support
conservation efforts for the North Atlantic and Appalachian LCCs. FWS used
WMI for scientific advice and management of FWS grant agreements.

In fact, more than 98 percent of the costs of this agreement covered grant
administration, a service that is of direct benefit to the Government. Under its
cooperative agreement, WMI distributed grant money after the LCCs had selected
the awardees. WMI did not participate in the selection and acted only as a pass-
through for funds.

We question all indirect costs charged by WMI in this agreement. WMI charged
an indirect, overhead cost rate of 10 percent of the direct grant costs, in the
amount of $182,947 (see Appendix 5). WMI’s approved provisional indirect cost
rate agreement (by DOI’s National Business Center as the cognizant or financially
responsible agency) for the relevant period was 67 percent of direct salaries and
fringe benefits only. As direct salaries listed in WMI’s budget were zero, the
related indirect costs to the Government also would be zero.

In addition, the Appalachian LCC awarded Virginia Polytechnic Institute and
State University (Virginia Tech) an $84,174 cooperative agreement for support
services, which included office space, computer support, and other administrative
activities. We question the use of a cooperative agreement for service-related
activities. Considering 31 U.S.C. § 6303, this award appears to be more in
keeping with a contracting action.
The Southern Rockies LCC awarded the University of California-Davis a $99,875
cooperative agreement for a project related to adaptive management capacity on


                                                                                  7
Navajo Nation lands. Since no substantial Federal involvement appeared in the
statement of work, this agreement would have been more appropriately funded as
a grant.

FWS performed no legal reviews prior to awarding any of these financial
assistance agreements. Had FWS performed an appropriate legal review, these
issues very likely would have been identified and corrected.

Potential Conflict of Interest and Absence of Sole-Source Justification
At the Southern Rockies LCC, we found that FWS reported five awards to State
agencies on Grants.gov as having been competed through the LCC but that were,
in fact, awarded without competition. No sole-source justification was prepared
for these awards.

These five award recipients regularly partner with Southern Rockies and hold
positions on the LCC’s steering committee. Members of this steering committee
also have responsibility for recommending awards. This creates the appearance of
a conflict of interest since the agencies represented by these steering committee
members received Federal grant funds without competition and without public
posting of a sole-source justification. Our interviews indicated that the grants
officer was unaware that the five agreements had been awarded without
competition. These awards to State agencies, which support the agencies’
participation in the LCCs (e.g., capacity grants), should be appropriately justified
and documented as sole-source awards.

In addition, we uncovered a similar situation in the Great Northern LCC. Again,
we identified that two agreements were awarded without competition, even
though the Grants.gov notice identified them as competitive awards. No sole-
source justification was posted or prepared.

Inaccurate or Poorly Determined Risk Analyses
To determine the level of risk associated with awarding Federal funds to a
grantee, OMB guidelines (2 C.F.R. § 180.425) require agencies to confirm that
the recipient of Federal funds has not been suspended or debarred. In accordance
with 505 DM § 2.11 (E) and 43 C.F.R. § 12.914, bureaus are responsible for
assessing the level of risk associated with an award to the grantee. Risk
assessment is based on a variety of factors, including, but not limited to, single
audit results, past experience, and review of the Excluded Parties List System
(EPLS). A high level of risk can result in conditions being imposed to mitigate the
risk.

Although FWS generally documented the single audit and EPLS results, FWS did
not document its conclusions on the level of risk ascribed to the grantee. Without
such documentation, reviewers cannot determine whether FWS considered all
appropriate factors before awarding the grants. Also, without full documentation




                                                                                   8
that includes some notation of all the steps in the process, the possibility of
inconsistent risk assessments is increased.

During our audit, we identified at least one occurrence of inconsistent risk
assessments, where the same grantee was given two different risk assessments.
The Great Northern LCC awarded a $25,000 cooperative agreement to Montana
State University, identifying it as a “high-risk” recipient. Then, in a separate
cooperative agreement valued at $230,417 with the same grantee, the Great
Northern LCC identified the institution as a “low-risk” recipient.

In both instances, the LCC used the same criteria to determine risk—

     • the Federal Audit Clearinghouse (FAC) report for the State of Montana for
       the fiscal year ending June 30, 2009;
     • EPLS results; and
     • the Central Contractor Registration (CCR) and Online Representations and
       Certifications Application (ORCA) database. 5

The file we reviewed contained no evidence that the grants officer or the LCC
coordinator notified the grantee of its “high risk” status prior to making the award,
even though the file did contain a memorandum to the LCC project officer, noting
the grantee’s status and stating: “According to the Federal Audit Clearinghouse,
the 2009 audit rated this Cooperator as high risk, in areas such as reporting,
allowable activities, matching funds, period of availability of federal funds, and
reporting.” For the same grantee, a second file contained an undated project
officer memorandum using the identical FAC year data, but identifying the
recipient as low risk and adding the following qualifying statement: “According
to the Federal Audit Clearinghouse, the (2009) audit rated this Cooperator as Low
Risk, however, areas such as reporting, allowable costs and activities, sub-
recipient monitoring, and cash management, should still be monitored.”

Inadequate review and analysis of existing documentation contributed to the
assignment of an inappropriate risk level to the grantee. Although award files
contained documentation, including the EPLS and CCR/ORCA records, we found
only a portion of the FAC report in both files, and this portion did not contain data
relevant to the grantee.

Inadequately identifying the risk status of grantees clearly indicates a lack of due
diligence by grants officers and review officials. Inappropriate designations may
potentially lead to an inadequate level of control over a questionable recipient and
may further place DOI funds in jeopardy for fraudulent activity.



5
 The CCR database is a central source for managing entities that receive Federal funds, as either contractors
or grantees. ORCA is used to perform representations and certifications online.. In August 2012, CCR and
ORCA were combined into the System for Award Management.


                                                                                                            9
In contrast, USBR developed its own specific form on which to detail the risk
level for specific grantees. All USBR-awarded grant and cooperative agreement
files that we reviewed contained—

   •   adequate risk assessment determinations;
   •   clear analysis and conclusion statements that indicated the ability of the
       awardee;
   •   a recommendation to award the grant or agreement; and
   •   key demographic data, including the agreement number, recipient,
       anticipated award amount, type of instrument, audit review findings and
       compliance with OMB Circular A-133, as well as a “recipient
       responsibility determination” assessment and a grants officer review.

All applicable portions of the form had been completed. We noted no deficiencies
with USBR’s process for risk assessment determinations.

Inadequate Budget Analysis and Proposals
A thorough budget analysis assesses an applicant’s financial strength and
management capability. Generally, the extent of the analysis completed by the
awarding organization depends on the amount of the grant, the nature of the
project, the costs involved, and past experience with the grantee.

At a minimum, the analysis should determine how realistic the proposed budget is
in comparison to the potential grantee’s technical proposal. Also, the indirect cost
rate should compare with the rate approved by the cognizant agency. Otherwise,
the recipient’s method of computing this rate should be analyzed.

We found that FWS budget analyses often appeared inadequate, relying on
standard language rather than modifying that language to allow for differences
among specific agreements, and offered no evidence of actual review. For
example, the Great Northern LCC budget certifications of project officers all
contained identical language, changing only the name of the grantee. These
documents began with a statement: “The costs were developed jointly between
the [grantee] and the FWS Program Officer,” but the costs were not jointly
developed. Rather, they were submitted by the grantee in the proposal submission.

We also found that applicants’ budget information often appeared insufficiently
detailed for a proper analysis. For example, a grant agreement for $50,000 cited
salaries of $20,246 and contractual costs of $10,500 without any further details.
Indirect cost rates and fringe benefit rates also went undocumented. A cooperative
agreement for $156,985 contained no indication that review of indirect costs had
occurred.

In contrast to the findings we noted concerning FWS, we found that USBR
performed more thorough budget analyses, using an “Application Budget
Review” form to document their reviews. The form includes cost categories, such


                                                                                    10
as indirect costs, and space for questions, such as whether the applicant has an
approved indirect rate and whether that rate has been correctly applied. We noted
that USBR’s files contained correspondence with the applicants regarding their
budgets as well as changes to those budgets when USBR identified issues.

 Recommendations

 We recommend that FWS:

    1. Ensure that public notice and competition are performed in accordance
       with applicable laws, regulations, and DOI guidance;

    2. Ensure postings of grants and cooperative agreements on Grants.gov are
       available to the general public commensurate with fair and open
       competition;

    3. Limit use of sole-source awards to increase competition and
       transparency;

    4. Resolve the questioned costs;

    5. Use the appropriate legal instrument for funding financial awards;

    6. Consider whether legal reviews are needed before committing funds;

    7. Ensure that appropriate procedures are in place to address potential
       conflicts of interest;

    8. Develop and fully employ an appropriate USFWS risk assessment form;
       and

    9. Guarantee and independently verify that appropriate budget analyses and
       risk assessments are performed and accurately documented in the
       award file and, where applicable, that proper notifications are made and
       documented.



Internal Controls and Documentation
Inconsistent and Ineffective Use of DOI Financial Assistance
Agreement Review Sheet
We found that key grants management controls developed by DOI have not been
adequately implemented by FWS at the LCC level. In response to a 2005 OIG




                                                                               11
recommendation, 6 DOI issued its “Financial Assistance Communication Liaison
Policy Release 2007-1,” dated December 28, 2006, mandating that a standard
process be followed by grants management offices overseeing DOI financial
assistance awards. The policy release provides a standardized financial assistance
agreement review sheet to be used as a quality assurance tool and reiterates the
requirements found in 505 DM §§ 2.2, 2.3, 2.9, 2.12, and 2.13 regarding—

        •    selection of the appropriate award instrument (e.g., grant, contract, or
             cooperative agreement);
        •    need for clear legal authority for entering into financial assistance
             agreements; and
        •    increased competition, where appropriate, and transparency in all
             financial assistance transactions.

DOI’s review sheet helps bureaus comply with grants management requirements
by providing a checklist to which grant managers can refer. We found that
weaknesses exist in the FWS LCCs’ application and use of this review sheet. We
believe that this inconsistency contributed not only to the absence of required
documentation but also to the varying degree of completion of required
documents. In 16 of the FWS LCC grant agreements we analyzed, the review
sheet either was not used or only partially used, or the version in the grant file did
not cover all of the requirements established by DOI. In addition, we noticed that
the degree of attention paid to the accuracy and completion of the checklists
varied among LCCs.

For example, five of the eight grant files we reviewed at the Southern Rockies
LCC contained incomplete review sheets. Many files did not have the required
initials showing that checklist items had been reviewed, or contained a circle with
no annotation, suggesting that the item needed review but remained unverified.
Similarly, five of the fifteen files we reviewed for the Great Northern LCC had
either incomplete or missing checklists. The remainder were associated with the
Appalachian LCC (two awards) and the South Atlantic LCC (four awards). In
fact, the FWS-managed South Atlantic and Appalachian LCCs’ review sheets
contained fewer details than the DOI checklist required.
In contrast, we found that the FWS-managed North Pacific LCC provided award
document review sheets that were complete for nine awards and corresponded
precisely with DOI’s review sheet. We noted no deficiencies in the use of this
form. We also found the same degree of completeness with the nine USBR-
managed award files at the Desert and Southern Rockies LCCs.

Insufficient Documentation
Appropriate completion of the review form and inclusion of key documentation in
the grant file are controls that verify compliance with policies and procedures.

6
  OIG report W-IN-MOA-0052-2004, dated August 2005: “Framework Needed to Promote Accountability in
Interior’s Grant Management.”


                                                                                               12
They also help to prevent or detect potential fraud when awarding financial
agreements. The grant and cooperative agreement files that we reviewed
contained insufficient documentation, raising concerns related to enforcement of
OMB and DOI requirements.

Even though in some cases checklists had been completed, we identified areas of
concern with respect to internal controls. Overall, we found problems with
documentation for all of the 38 financial assistance awards made by FWS. Figure
2 summarizes the documentation problems we found and the number of awards
associated with each problem.

                                                            Number of
     Documentation Deficiency Description                Agreements with a
                                                            Deficiency
 Review checklist lacks conformity with DOI
                                                                   16
 checklist
 Inadequate/incomplete budget analysis                             36

 Inadequate business risk analysis                                 37

 Incorrect program authority                                       33

 Inadequate or missing sole-source justification                   9

 Funding opportunity not posted to Grants.gov                      23

 Inadequate response time for funding opportunities                13
 Incomplete/inaccurate determination and findings
                                                                   23
 statements
 Inadequate justification for financial vehicle used               3

Figure 2. Summary of deficiencies.

The deficiencies we found could have been identified by a grants officer or a
higher level review. These files showed little evidence of such examination and
correction. In contrast, we did find that USBR had much stronger controls over
financial assistance awards than FWS. USBR files contained information on
deficiencies detected during internal reviews and actions taken to correct them.
USBR routinely used a second-level, independent reviewer, which contributed to
the quality of their documentation. This practice could be readily adopted by
FWS.




                                                                               13
Incorrect Program/Funding Citations
Federal agencies do not have legal authority to enter into grants and cooperative
agreements unless specifically authorized by legislation (referred to as program
authority). The program authority also indicates who is eligible for awards, the
purpose for which they can be made, and any other constraints. An agency is
required to cite the legal authority it uses in the final award agreement.
We found the LCCs included irrelevant citations or incorrectly cited laws in 33 of
their 38 awards. This indicates that FWS staff do not have a clear understanding
of the various program authorities under which their awards are being made. As a
result, there is an increased risk that awards will be made for an incorrect purpose,
to an ineligible recipient, or without proper requirements.

One LCC consistently included a reference to the Federal Grant and Cooperative
Agreement Act of 1977 (31 U.S.C. §§ 6301-6308), which contains no grant-
making authority. Also, 505 DM § 2.10 explicitly states that this act will not be
cited as authority. Another LCC incorrectly cited the Land and Water
Conservation Fund Act of 1965, which also has no authority associated with
financial assistance entered into by an LCC.

Inadequate Determination and Findings Statements
We further identified instances where determination and findings statements did
not clearly indicate whether a grant or a cooperative agreement was the delivery
instrument for Federal awards. “Determination and Findings” is a special form of
written approval by an authorized official that is required by statute or regulation
as a prerequisite to taking certain actions. The “determination” is a conclusion or
decision supported by the “findings.’’ The findings are statements of fact or
rationale essential to support the determination and must cover each requirement
of the statute or regulation. Even though such statements could be located in the
file, they did not always cite the type of financial instrument used by FWS.

According to 505 DM § 2.6: “[B]ureaus and offices will determine and use the
appropriate instrument (i.e., procurement contract, grant agreement, or
cooperative agreement) when acquiring property and services or in providing
financial assistance. Files should be documented, with justification of the
appropriate financial assistance instrument.” Overall, 61 percent of the FWS
awards we reviewed did not clearly specify the type of financial assistance to be
used. The problem was most prevalent in the Great Northern and Southern
Rockies LCCs.

Appendix 4 provides a breakdown of the documentation deficiencies we
identified during our audit.




                                                                                  14
 Recommendations

 We recommend that FWS:

    10. Direct the use of the FWS’ checklist, which incorporates all elements
        of the DOI standardized checklist across all LCCs;

    11. Require all noncompetitive discretionary grant awards be reviewed at a
        level above awarding officials; and

    12. Perform periodic management reviews of financial assistance processes
        to ensure that controls are properly enforced and effective.


Oversight and Control of LCCs
Insufficient Coordination between Program and Grant Officers at
LCCs
Many of the FWS LCCs’ issues can be attributed to poor coordination between
some LCC coordinators and grants officers at the sites that we visited. Our
interviews with various LCC coordinators and grants officers indicated less-than-
satisfactory coordination to ensure competition, evaluate proposals, and monitor
performance of grantees.

For example, we determined that there was miscommunication regarding award
competition at the Southern Rockies LCC. The grants officer believed that eight
financial assistance awards were competed through the LCC when, in fact only
three were competed. The LCC coordinator confirmed that these were sole-source
selections, but this was not communicated to the grants officer.

At the Great Northern LCC, the coordinator maintained files separate from those
maintained by the grants administrator. The coordinator prepared and sent to the
grants officer an overarching funding opportunity announcement for FY 2011,
which the grants officer never posted to Grants.gov. The LCC coordinator did not
know that the announcement had not been posted.

We observed that LCC coordinators did not have access to full grant files even
though, in most cases, they served as the grants officers’ technical representatives.
The lack of coordination we observed contributes to the ineffective grants
management we have noted thus far. In contrast, we noted that the North Pacific
LCC used SharePoint™ (a collaborative software) to ensure that the grants
administrator and the LCC coordinator had access to all information for awarding
and monitoring grants, including grantee financial and performance reports.




                                                                                  15
Absence of Adequate Grants Management Training
LCC coordinators or science coordinators who function as grants officers’
technical representatives appear to have limited background in grants and
cooperative agreements. Based upon our interviews and observations, we found
that at least three of the six LCCs we visited lacked coordinators with sufficient
background and training to complete the necessary work efficiently and
accurately.

It was also apparent that lack of training in financial assistance for both grants
officers and their technical representatives contributed to the problems we
identified. FWS has no training requirements for either grants officers or their
technical representatives beyond a basic grants management course. Lack of
training was identified as a problem in FWS’ own financial assistance reviews.

In contrast, USBR requires both its grants officers and their technical
representatives to complete initial training, plus refresher training at least every
other year.

 Recommendations

 We recommend that FWS:

       13. Encourage closer coordination and communication of financial
           assistance requirements between LCC coordinators and grants
           management personnel;

       14. Provide LCC coordinators access to full grant files; and

       15. Develop and standardize training for appropriate FWS staff who
           serve as the grants officers’ technical representatives.


Promising Practices
Although this report focuses on deficiencies in financial assistance management
practices, we also observed what we consider to be promising practices at specific
LCCs:

   •   The Appalachian LCC developed a database that listed more than 180
       regional experts in various fields pertinent to the LCC’s mission. The
       catalogue provides project officers a quick reference to locate expertise on
       technical and scientific issues when designing awards, ensuring accuracy,
       and advocating for necessary scientific needs. Other LCCs could benefit
       from a similar database or, better yet, a shared database.
   •   The South Atlantic LCC and the Great Northern LCC created databases
       listing active projects conducted by partners within and around their LCC



                                                                                       16
       borders, facilitating knowledge sharing among the partners and the
       creation of unique projects without regional duplication.
   •   The North Pacific LCC had an experienced staff member onsite who is
       knowledgeable in grants management to ensure that there was
       coordination in the financial award process between the LCC and the FWS
       regional office.
   •   USBR, in its role as the Desert LCC lead agency and the Southern Rockies
       LCC co-lead, demonstrated the most efficient management practices for
       financial assistance awards. A high degree of collaboration existed
       between program and financial assistance staff. USBR required cost
       sharing on their financial assistance agreements, often a requirement of
       grant-making organizations, which allowed the Bureau to better leverage
       its funds.

These represent an opportunity for the LCCs to identify practices that could
benefit the LCC network and the program as a whole if adopted nationally. Idea
exchange is of fundamental importance to the success of the LCCs, in that it
prevents duplications of effort and redundancies within the program. We
encourage LCC leadership to share concepts that improve management of this
initiative.




                                                                                 17
Conclusion and Recommendations
Conclusion
We evaluated 47 grants and cooperative agreements worth $6.8 million
administered through the LCCs in support of DOI’s climate change initiative. We
noted that DOI policies designed to strengthen internal control mechanisms
developed in response to previous OIG recommendations were inadequately
implemented and ineffectively enforced. This leaves DOI open to possible
allegations of insufficiently supporting competition and transparency in the
Federal award process, in addition to increasing the potential for fraudulent
activity. Failing to adequately address these issues creates an ongoing concern.

We offer 15 recommendations, together with promising practices, to help the
bureaus and DOI bring LCC grants management activities into conformance with
regulations and DOI policies. Because the intention behind the creation of the
LCCs is so critical to the future of DOI resources, we believe that these steps are
necessary to reinforce the continued value of LCCs to the American public.

Recommendations Summary
We recommend that FWS:

   1. Ensure that public notice and competition are performed in accordance
      with the applicable laws, regulations, and DOI guidance.

       FWS Response: FWS concurred with the recommendation. In its
       response, FWS indicated that on May 11, 2012, FWS released “U.S. Fish
       and Wildlife Service, Issuing a New Financial Assistance Award
       Guidance.” FWS indicated that the guidance provides mandatory steps to
       be completed before a new award is released. In addition, FWS issued a
       memo on May 31, 2013, which re-emphasized existing FWS guidance;
       introduced a new requirement for regional directors to identify personnel
       who will be responsible for both financial and programmatic aspects of the
       LCCs and; instituted a requirement for all personnel involved with
       reviewing, negotiating, approving, monitoring and closing LCC grants and
       cooperative agreements to attend the Basic Financial Management Course
       before December 31, 2015 and complete refresher training every three
       years.

       OIG Analysis of FWS Response: Based on FWS’ response, we consider
       this recommendation resolved but not implemented.

   2. Ensure postings of grants and cooperative agreements on Grants.gov are
      available to the general public commensurate with fair and open
      competition.



                                                                                 18
   FWS Response: FWS concurred with the recommendation. In its
   response, FWS indicated that on May 11, 2012, it issued a memorandum
   titled “U.S. Fish and Wildlife Service, Issuing a New Financial Assistance
   Award Guidance,” which provides mandatory steps to be completed
   before a new award is released. FWS indicated that the memorandum
   addresses this topic and provides guidance on postings of grants and
   cooperative agreements on Grants.gov to ensure procedures are in place
   encouraging both fair and open competition. In addition, FWS issued a
   memo on May 31, 2013, titled, “Strengthening Financial Assistance
   Controls In Response to the Office of Inspector General’s Evaluation of
   the Department of the Interior’s Climate Change program: Landscape
   Conservation Cooperatives (ER-IN-MOA-0015-2011).” which re-
   emphasized existing FWS guidance; introduced a new requirement for
   regional directors to identify personnel who will be responsible for both
   financial and programmatic aspects of the LCCs and; instituted a
   requirement for all personnel involved with reviewing, negotiating,
   approving, monitoring and closing LCC grants and cooperative
   agreements to attend the Basic Financial Management Course before
   December 31, 2015 and complete refresher training every three years.
   FWS is also waiting for OMB to issue guidance on Grants.gov postings as
   part of the Reform of Federal Policies Relating to Grants and Cooperative
   Agreements (OMB-2013-0001-0001) and intends to comply fully with
   OMB’s guidance when it is released.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.

3. Limit use of sole-source awards to increase competition and transparency.

   FWS Response: FWS partially concurred with the recommendation. In its
   response, FWS indicated that in some instances, sole-source awards are
   the only option for LCC projects (e.g., awards to States). Therefore, FWS
   does not concur with the portion of the recommendation to limit the use of
   sole-source awards. FWS does concur with the portion of the
   recommendation to increase competition, where feasible, and increase
   transparency—that awards should be competed where possible and when
   in the best interest of FWS. On May 11, 2012, FWS issued a
   memorandum titled: “U.S. Fish and Wildlife Service, Issuing a New
   Financial Assistance Award Guidance,” which provides mandatory steps
   to be completed before a new award is released. FWS indicated that the
   memorandum addresses the justification of sole-source awards and states
   that the FWS’ “program office must make sure that all discretionary
   financial assistance awards that will be issued without competition (also
   known as sole source awards) are justified according to the Department
   policy (505 DM 2, Section 2.14).” The memorandum further states: “For
   discretionary awards to be issued without competition, the program office



                                                                           19
   must document in writing all sole source determinations, regardless of
   award amount, and post funding opportunities for sole source awards for
   $25,000 or more on Grants.gov.” In addition, FWS issued a memo on
   May 31, 2013, titled, “Strengthening Financial Assistance Controls In
   Response to the Office of Inspector General’s Evaluation of the
   Department of the Interior’s Climate Change program: Landscape
   Conservation Cooperatives (ER-IN-MOA-0015-2011).” which re-
   emphasized existing FWS guidance; introduced a new requirement for
   regional directors to identify personnel who will be responsible for both
   financial and programmatic aspects of the LCCs and; instituted a
   requirement for all personnel involved with reviewing, negotiating,
   approving, monitoring and closing LCC grants and cooperative
   agreements to attend the Basic Financial Management Course before
   December 31, 2015 and complete refresher training every three years.

   OIG Analysis of FWS Response: OIG’s recommendation stands as
   written since we believe the recommendation does allow FWS discretion
   in the use of sole-source awards. We recognize that circumstances exist
   when the use of sole-source agreements is necessary; therefore we
   consider this recommendation resolved but not implemented.

4. Resolve the questioned costs.

   FWS Response: FWS partially concurred with the recommendation. FWS
   stated that the Wildlife Management Institute (WMI), Virginia Tech, and
   University of California-Davis (UC-Davis) agreements were correctly
   classified as “financial assistance” rather than contracts, because their
   purposes meet the public good of supporting the mission of the LCCs, a
   group broader than FWS, which is made up of Federal agencies, State
   governments, and nonprofit organizations. The mission and targets of the
   LCCs are not solely those of FWS. Therefore, FWS stated that the
   agreements with WMI, VT, and UC-Davis were not funded in order to
   meet agency-specific needs.

   FWS agreed that the budget documentation with WMI indicates that
   indirect cost was inaccurately assessed. FWS is coordinating with WMI to
   get detailed information about the 10 percent surcharge to determine
   whether payback is required and will communicate corrective action, if
   required, by December 31, 2013.

   OIG Analysis of FWS Response: We still have concerns regarding the
   vehicles chosen for the Virginia Tech and University of California-Davis
   agreements, particularly the phrasing of the justifications, but we feel that
   any changes to the vehicle would not be in the best interest of the
   Government. Therefore, we do not view the amounts for these two
   agreements as questioned costs. Based on FWS addressing the questioned



                                                                              20
   indirect costs associated with WMI, we consider this recommendation
   resolved but not implemented.

5. Use the appropriate legal instrument for funding financial awards.

   FWS Response: FWS concurred with the recommendation. FWS issued a
   memo on May 31, 2013, titled, “Strengthening Financial Assistance
   Controls In Response to the Office of Inspector General’s Evaluation of
   the Department of the Interior’s Climate Change program: Landscape
   Conservation Cooperatives (ER-IN-MOA-0015-2011)”, which re-
   emphasized existing FWS guidance with respect to the use of appropriate
   legal instruments for funding financial awards (memorandum dated May
   11, 2012 titled: “U.S. Fish and Wildlife Service, Issuing a New Financial
   Assistance Award Guidance”). The May 31, 2013 memorandum
   introduces a new requirement for regional directors to identify personnel
   who will be responsible for both financial and programmatic aspects of the
   LCCs and; instituted a requirement for all personnel involved with
   reviewing, negotiating, approving, monitoring and closing LCC grants and
   cooperative agreements to attend the Basic Financial Management Course
   before December 31, 2015 and complete refresher training every three
   years.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.

   6. Consider whether legal reviews are needed before committing funds.

   FWS Response: FWS concurred with the recommendation. It agreed that
   awards meeting the definition laid out in 505 DM 2 are good candidates
   for legal review. FWS reinforced the guidance for legal review as stated in
   the its memorandum, “U.S. Fish and Wildlife Service, Issuing a New
   Financial Assistance Award Guidance,” issued May 11, 2012, with an
   additional memorandum released on May 31, 2013 titled, “Strengthening
   Financial Assistance Controls In Response to the Office of Inspector
   General’s Evaluation of the Department of the Interior’s Climate Change
   program: Landscape Conservation Cooperatives (ER-IN-MOA-0015-
   2011).” The Director’s memorandum requires regional directors to
   identify regional solicitor points of contact for LCC matters by December
   31, 2013. In addition, this memo institutes a requirement for all personnel
   involved with reviewing, negotiating, approving, monitoring and closing
   LCC grants and cooperative agreements to attend the Basic Financial
   Management Course before December 31, 2015 and complete refresher
   training every three years.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.



                                                                           21
7. Ensure that appropriate procedures are in place to address potential
   conflicts of interest.

   FWS Response: FWS concurred with the recommendation. FWS
   indicated the need to use a variety of appropriate approaches to manage
   LCC-related financial assistance awards, depending on the need. For
   example, in its response, FWS indicated that awards made to State agency
   partners in support of their ability to effectively participate in an LCC (i.e.,
   capacity grants) will likely be sole-source grants. In such cases, FWS
   indicated that appropriate justification will need to be developed and
   included in the grant files. FWS also indicated a need to develop and issue
   guidance on these procedures, including the identification of situations
   that pose potential conflicts of interest. In its response, FWS indicated it
   will encourage LCC participants to seek review from their regional ethics
   official when faced with a situation that may pose a potential conflict of
   interest. The target date for implementation is December 31, 2014.
   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.
8. Develop and fully employ an appropriate USFWS risk assessment form.

   FWS Response: FWS did not concur with the recommendation as
   originally stated, which proposed that the agency adopt USBR’s risk
   assessment form. The agency did not agree for the following reasons: DOI
   released DIG 2011-03, “Financial Assistance Monitoring Protocol” on
   September 13, 2011. Although the policy provided a DOI wide checklist
   and risk assessment form, bureaus commented that the risk assessment
   form required major modifications. DOI agreed to revise the policy to
   incorporate bureau input. DOI anticipates that the revised risk assessment
   tool will be ready for bureau use by fiscal year 2014. FWS will use DOI’s
   risk assessment tool when it becomes available. The target date for
   implementation of this tool is December 31, 2015.

   OIG Analysis of FWS Response: Based on FWS’ response, we have
   changed our original recommendation to the language provided by FWS
   and noted in the current recommendation. Since the target date is
   December 31, 2015, we consider this recommendation resolved but not
   implemented.

9. Guarantee and independently verify that appropriate budget analyses and
   risk assessments are performed and accurately documented in the award
   file and, where applicable, that proper notifications are made and
   documented.

   FWS Response: FWS concurred with the recommendation. In its
   response, FWS indicated that on May 11, 2012, the agency issued a


                                                                                22
   memorandum titled “U.S. Fish and Wildlife Service, Issuing a New
   Financial Assistance Award Guidance,” which provides mandatory steps
   to be completed before a new award is released and addresses this topic.
   FWS indicated that it plans to develop its own Financial Assistance Risk
   Assessment Checklist. In addition, FWS will require recipients to submit a
   budget sheet with sufficient information for project officers to make a
   determination on costs and benefits of the project. FWS’ responses to
   Recommendation 10 (checklist), Recommendation 11 (second-level
   review), and Recommendation 15 (training), below, will also strengthen
   this corrective action. In addition, FWS issued a memo on May 31, 2013,
   titled, “Strengthening Financial Assistance Controls In Response to the
   Office of Inspector General’s Evaluation of the Department of the
   Interior’s Climate Change program: Landscape Conservation Cooperatives
   (ER-IN-MOA-0015-2011).” which re-emphasized existing FWS guidance;
   introduced a new requirement for regional directors to identify personnel
   who will be responsible for both financial and programmatic aspects of the
   LCCs and; instituted a requirement for all personnel involved with
   reviewing, negotiating, approving, monitoring and closing LCC grants and
   cooperative agreements to attend the Basic Financial Management Course
   before December 31, 2015 and complete refresher training every three
   years.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.

10. Direct the use of the FWS’ checklist, which incorporates all elements of
    the DOI standardized checklist across all LCCs.

   FWS Response: FWS partially concurred with the recommendation.
   DOI’s Financial Assistance Agreement Review Sheet outlines general
   categories of actions, which have been found to be too vague for FWS
   staff responsible for reviewing grant and cooperative agreements as a
   collateral duty or who are new to financial assistance. To respond to these
   concerns, FWS indicated that it has expanded the general actions in the
   DOI checklist and created its own Checklist for New Financial Assistance
   Awards. FWS indicated that its checklist incorporates the items in the DOI
   checklist and more clearly describes the authorities behind and
   expectations for pre-award actions. In this way, FWS believes the
   checklist is tailored to better meet its business and operational needs for
   administering financial assistance awards and that it may be useful to
   other bureaus within DOI. FWS issued a memo re-emphasizing this
   guidance on May 31, 2013, titled, “Strengthening Financial Assistance
   Controls In Response to the Office of Inspector General’s Evaluation of
   the Department of the Interior’s Climate Change program: Landscape
   Conservation Cooperatives (ER-IN-MOA-0015-2011).”




                                                                               23
   OIG Analysis of FWS Response: Based on FWS’ response, we have
   changed our original recommendation, which suggested using DOI’s
   standardized checklist across all LCCs, and incorporated language
   provided by FWS. Since FWS has issued updated guidance we consider
   this recommendation resolved and implemented.

11. Require all noncompetitive discretionary grant awards be reviewed at a
    level above awarding officials.

   FWS Response: FWS concurred with the recommendation. On May 11,
   2012, the FWS issued a memorandum titled “U.S. Fish and Wildlife
   Service, Issuing a New Financial Assistance Award Guidance,” which
   provides mandatory steps to be completed before a new award is released
   and addressed. In addition, on October 11, 2012, FWS released a signature
   authority policy that requires a second-level review, thereby
   acknowledging that the reviewing official and signatory should not be the
   person who administers the grant. FWS will develop a single, standard
   methodology that its headquarters and regional staff will follow. This will
   be communicated through a memo from the Director, mandating use of
   this methodology. The target date for implementation is December 31,
   2013.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.

12. Perform periodic management reviews of financial assistance processes to
    ensure that controls are properly enforced and effective.

   FWS Response: FWS concurred with the recommendation. The Division
   of Policy and Directives Management will perform targeted internal
   control reviews on a 4-year cycle beginning FY 2015. Results will be
   reported to the Director and to the DOI Division of Financial
   Management. In addition, the Branch of Financial Assistance Policy and
   Oversight is conducting a Bureauwide A-123 Appendix A review of
   cooperative agreements. FWS has identified a target date of September 30,
   2015, for completion of these actions.

   OIG Analysis of FWS Response: Based on FWS’ response, we consider
   this recommendation resolved but not implemented.

13. Encourage closer coordination and communication of financial assistance
    requirements between LCC coordinators and grants management
    personnel.

   FWS Response: FWS concurred with the recommendation. In a May 31,
   2013 memorandum titled: “Strengthening Financial Assistance Controls In



                                                                             24
   Response to the Office of Inspector General’s Evaluation of the
   Department of the Interior’s Climate Change program: Landscape
   Conservation Cooperatives (ER-IN-MOA-0015-2011)”, the Director
   requires that each region has a memorandum of understanding that
   outlines responsibilities for project officers and support staff. It will
   include responsibilities associated with access to files for both program
   and fiscal and administrative staff. Regional directors are to submit
   memorandums of understanding to the Director by December 31, 2013.
   FWS did recommend replacing the phrase, “LCC coordinator,” with
   “appropriate FWS LCC staff,” because not all LCC coordinators are DOI
   personnel.

   OIG Analysis of FWS Response: We retained the phrasing of our
   original recommendation because we do believe it is critical that closer
   coordination exist between LCC coordinators, regardless of their
   affiliation, and grants management personnel. FWS’ proposed actions
   adequately address the spirit of our recommendation. Therefore, based on
   FWS’ response, we consider this recommendation resolved but not
   implemented.

14. Provide LCC coordinators access to full grant files.

   FWS Response: FWS partially concurred with the recommendation. FWS
   recommended changing the phrase, “LCC coordinator,” to “appropriate
   FWS LCC staff,” because not all LCC coordinators are DOI personnel,
   and some might be outside the Government. FWS also indicated the need
   to be mindful of confidentiality and Privacy Act requirements as
   appropriate. The Bureau indicated that each region would determine its
   best process for file sharing while considering the Privacy Act and
   confidential information. FWS estimates this to be completed by
   December 31, 2014.

   OIG Analysis of FWS Response: We agree that appropriate LCC staff
   should have access to full grant files, but since the issues we observed
   during our audit focused on LCC coordinator issues, the recommendation
   will remain as is. We consider this recommendation resolved but not
   implemented.
15. Develop and standardize training for appropriate FWS LCC staff who
    serve as the grants officer’s technical representatives.

   FWS Response: FWS concurred with the recommendation but proposed
   changing the phrase, “LCC coordinator,” to “appropriate FWS LCC staff”
   because not all LCC coordinators are DOI personnel. Signature authority
   policy requires training for signatories of the notice of award letter. FWS
   will also require that project officers, reviewers, and approving authorities
   attend basic financial assistance training provided by the Wildlife and


                                                                              25
Sport Fish Restoration Training group no later than December 31, 2015.
The “Basic Financial Assistance / Service-Wide Basic Grants and
Cooperative Agreements Course” is available throughout the year in
various locations. On May 31, 2013, the Director issued memorandum
titled, “Strengthening Financial Assistance Controls In Response to the
Office of Inspector General’s Evaluation of the Department of the
Interior’s Climate Change program: Landscape Conservation Cooperatives
(ER-IN-MOA-0015-2011)”, to headquarters and the regions mandating
that (1) training be received by December 31, 2015, and (2) refresher
training be completed every 3 years.

OIG Analysis of FWS Response: We recognize that in some instances
FWS LCC staff other than the LCC coordinator may need to serve as
technical representatives; therefore, we have changed the wording of our
recommendation. We consider this recommendation resolved but not
implemented.




                                                                       26
Appendix 1: Scope and Methodology
Scope
The scope of our audit covered landscape conservation cooperatives (LCC)
financial assistance agreements that used fiscal years (FYs) 2010 and 2011 funds.
Operational status and maturity of the LCCs varied among those examined. We
only included agreements awarded once the LCC was fully in operation.
Accordingly, FY 2010 agreements were not reviewed for the South Atlantic, the
North Pacific, or the Appalachian LCCs.

Our scope did not include a detailed review of contracts or interagency
agreements. We did, however, perform a cursory review of some contracts and
interagency agreements as part of gaining an understanding of the LCCs’
operations. During our survey phase, we reviewed the involvement of LCCs with
the Bureau of Land Management, U.S. Geological Survey, National Park Service,
and Bureau of Indian Affairs. These bureaus, however, did not have any financial
assistance awards at the LCCs we reviewed. Accordingly, they were not covered
in our audit fieldwork.

Methodology
To accomplish the audit’s objectives, we—

   •   gathered general, administrative, and background information to provide a
       working knowledge of the U.S. Department of the Interior’s (DOI) climate
       change program and the grants management processes;
   •   interviewed DOI and bureau personnel responsible for overseeing the
       LCCs;
   •   reviewed relevant Office of Inspector General and U.S. Government
       Accountability Office reports;
   •   identified and reviewed policies and procedures related to LCCs and to the
       award and monitoring of financial assistance agreements;
   •   selected a judgmental sample of LCCs for site visits to cover LCCs in
       differing stages of maturity and operated by different bureaus;
   •   conducted site visits to interview LCC program coordinators and grants
       management personnel;
   •   reviewed all financial assistance agreements for each LCC site visited; and
   •   used the DOI checklist provided in the “Financial Assistance Liaison
       Policy Release 2007-1” memorandum to determine compliance with
       established guidelines; and
   •   performed tests of internal controls relevant to our audit objectives.
As part of our audit, we performed tests to detect fraud and illegal acts and to
ensure that funds were used for their intended purpose. Nothing came to our
attention to indicate that fraud actually occurred.



                                                                                   27
Our methodology did not rely on any computer generated data.

We conducted this audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit’s objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Limitations
Many of the financial assistance agreements we reviewed had been awarded
shortly before the time of our audit. Therefore, we had limited opportunity to
review LCC controls over the monitoring of work performed.




                                                                                 28
Appendix 2: Sites and Office Visited
or Contacted
U.S. Department of the Interior
   Deputy Secretary, Washington, DC
   Office of Policy, Management and Budget
      Office of Policy Analysis, Washington, DC
      Office of Budget, Washington, DC

U.S. Fish and Wildlife Service
   Washington Office
       Office of Policy Analysis, Arlington, VA
       Office of the Science Advisor, Arlington, VA
       Division of Policy and Directive Management, Arlington, VA

   Region 1 – Pacific, Portland, OR
      North Pacific LCC (site visit), Lacey, WA
   Region 4 – Southeast, Atlanta, GA
      South Atlantic LCC (site visit), Raleigh, NC
   Region 5 – Northeast, Hadley, MA
      Appalachian LCC (site visit), Blacksburg, VA
   Region 6 – Mountain-Prairie, Lakewood, CO
      Southern Rockies LCC (site visit), Lakewood, CO
      Great Northern LCC (site visit), Bozemann, MT

U.S. Bureau of Reclamation
   Policy and Administration Office, Lakewood, CO
       Basin Studies, Lakewood, CO
           Desert LCC (site visit), Lakewood, CO
           Southern Rockies LCC (site visit), Lakewood, CO

Survey Phase Only
U.S. Geological Survey
       Climate and Land Use Change, Reston, VA

Bureau of Land Management
      Plant Conservation Program, Denver, CO

National Park Service
       Natural Resource Stewardship and Science, Washington, DC




                                                                    29
Appendix 3: Grants and Cooperative
Agreements Reviewed
#    Agreement       Recipient           Bureau   Type       LCC          Amount
                    Colorado State                         Southern
1    F11AP00125       University          FWS     Grant     Rockies        $91,028
                       Nature                              Southern
2    F11AP00121     Conservancy           FWS     Grant     Rockies        $50,000
                       Arizona
                  Department of Fish                       Southern
3    F11AP00126      and Game             FWS     Grant     Rockies        $95,000
                    New Mexico
                  Department of Fish                       Southern
4    F11AP00130      and Game             FWS     Grant     Rockies        $95,000
                   Utah Division of                        Southern
5    F11AP00127   Wildlife Resources      FWS     Grant     Rockies        $20,000
                  Wyoming Game and                         Southern
6    F11AP00131    Fish Department        FWS     Grant     Rockies        $20,000
                       Colorado
                    Department of                          Southern
7    F11AP00132   Natural Resources       FWS     Grant     Rockies        $20,000
                    Colorado State                         Southern
8    R11AC81525       University         USBR      CA       Rockies       $105,755
                    Conservation                           Southern
9    R11AP81524    Biology Institute     USBR     Grant     Rockies       $200,000
                     University of                         Southern
10   F11AC00393    California-Davis       FWS      CA       Rockies        $99,875
                        Wildlife
                     Management
11   F11AC00223        Institute          FWS      CA     Appalachian     $2,032,418
12   F11AC00224      Virginia Tech        FWS      CA     Appalachian      $84,174
                   National Wildlife
13   F11AP00032       Foundation          FWS     Grant   North Pacific    $68,108
                   Point Reyes Bird
14   F11AP00033      Observatory          FWS     Grant   North Pacific    $95,000
                  Conservation Bird
15   F11AP00034        Institute          FWS     Grant   North Pacific    $99,500
16   F11AP00036        Ecotrust           FWS     Grant   North Pacific    $95,000
                     The Nature
17   F11AP00037      Conservancy          FWS     Grant   North Pacific    $76,000
                     University of
18   F11AC00080      Washington           FWS      CA     North Pacific    $99,424
                     University of
19   F11AC00081      Washington           FWS      CA     North Pacific    $72,915
                     University of
20   F11AC00082        Montana            FWS      CA     North Pacific    $41,243
                  University of Alaska
21   F11AC00084            SE             FWS      CA     North Pacific    $74,600




                                                                                  30
#    Agreement        Recipient         Bureau   Type     LCC       Amount
                                                          South
22   F11AC00184    Orianne Society       FWS      CA     Atlantic   $95,760
                     University of                        South
23   F11AC01121     Central Florida      FWS      CA     Atlantic   $156,985
                  University of South                     South
24   F11AC01185        Carolina          FWS      CA     Atlantic   $42,925
                                                          South
25   F11AC01120   Wildlands Network      FWS      CA     Atlantic   $91,145
                     Washington
                  Department of Fish                      Great
26   F10AP00288      and Wildlife        FWS     Grant   Northern   $467,417
                  Idaho Department                        Great
27   F10AP00300    of Fish and Game      FWS     Grant   Northern   $280,000
                    The Wilderness                        Great
28   F11AP00129         Society          FWS     Grant   Northern   $39,068
                                                          Great
29   F11AP00128    Ducks Unlimited       FWS     Grant   Northern   $50,000
                    Montana Fish,                         Great
30   F10AP00289    Wildlife and Parks    FWS     Grant   Northern   $100,000
                  Wyoming Game and                        Great
31   F10AP00299    Fish Department       FWS     Grant   Northern   $130,000
                        Oregon
                  Department of Fish                      Great
32   F11AP00120       and Wildlife       FWS     Grant   Northern   $20,000
                     University of                        Great
33   F10AC00597       Montana            FWS      CA     Northern   $77,000
                    Montana State                         Great
34   F10AC00605      University          FWS      CA     Northern   $25,000
                     University of                        Great
35   F10AC00586        Calgary           FWS      CA     Northern   $86,225
                     University of                        Great
36   F10AC00594      Washington          FWS      CA     Northern   $116,583
                    Montana State                         Great
37   F11AC00385      University          FWS      CA     Northern   $230,417
                     Oregon State                         Great
38   F10AC00587       University         FWS      CA     Northern   $75,000
                   The University of                      Great
39   F11AC00392      Washington          FWS      CA     Northern   $95,000
                  Province of British                     Great
40   F11AP0122        Columbia           FWS     Grant   Northern   $70,000
                   World Wildlife
41   R11AP81526      Foundation         USBR     Grant    Desert    $161,285
                     Texas Tech
42   R11AP81529       University        USBR     Grant    Desert    $94,839
                     Kansas State
43   R11AC81531       University        USBR      CA      Desert    $187,152




                                                                           31
#    Agreement        Recipient         Bureau   Type    LCC       Amount
                   Arizona Board of
                  Regents for and on
                     the behalf of
                  Northern Arizona
44   R11AC81532       University        USBR      CA     Desert    $179,209
                  The University of
45   R11AP81527    Texas at Austin      USBR     Grant   Desert    $90,640
46   R11AP81528   Sky Island Alliance   USBR     Grant   Desert    $99,042
                    University of
47   R11AP81530         Arizona         USBR     Grant   Desert     $86,567
                                                         Total    $6,782,299




                                                                          32
  Appendix 4: Listing of Documentation
  Deficiencies
                  Documented Deficiencies (see Table Key)
 LCC     Bureau   #    Agreement    A   B   C   D   E   F   G   H   I   J   K   L    M
SRLCC     FWS     1    F11AP00125       X   X   X       X               X
SRLCC     FWS     2    F11AP00121   X   X   X   X       X               X            X
SRLCC     FWS     3    F11AP00126       X   X   X   X   X       X       X            X
SRLCC     FWS     4    F11AP00130   X   X   X   X   X   X       X       X
SRLCC     FWS     5    F11AP00127       X   X   X   X   X       X       X
SRLCC     FWS     6    F11AP00131   X   X   X   X   X   X       X       X
SRLCC     FWS     7    F11AP00132   X   X   X   X   X   X       X       X
SRLCC    USBR     8    R11AC81525
SRLCC    USBR     9    R11AP81524
SRLCC     FWS     10   F11AC00393   X   X   X   X                   X   X
APPLCC    FWS     11   F11AC00223   X   X   X   X   X   X           X
APPLCC    FWS     12   F11AC00224   X   X   X   X   X               X           X
NPLCC     FWS     13   F11AP00032       X   X   X           X                   X
NPLCC     FWS     14   F11AP00033       X   X   X           X               X   X
NPLCC     FWS     15   F11AP00034       X   X   X           X               X   X
NPLCC     FWS     16   F11AP00036       X   X   X           X               X   X
NPLCC     FWS     17   F11AP00037       X   X   X           X               X   X
NPLCC     FWS     18   F11AC00080       X   X   X           X               X   X
NPLCC     FWS     19   F11AC00081       X   X   X           X               X   X
NPLCC     FWS     20   F11AC00082       X   X   X           X               X   X
NPLCC     FWS     21   F11AC00084       X   X   X           X               X   X
SALCC     FWS     22   F11AC00184   X   X   X               X   X       X   X
SALCC     FWS     23   F11AC01121   X   X   X               X               X
SALCC     FWS     24   F11AC01185   X   X   X               X   X           X
SALCC     FWS     25   F11AC01120   X   X   X               X   X           X
GNLCC     FWS     26   F10AP00288   X   X   X   X       X               X   X        X
GNLCC     FWS     27   F10AP00300       X   X   X       X               X   X   X
GNLCC     FWS     28   F11AP00129   X   X   X   X       X               X       X
GNLCC     FWS     29   F11AP00128   X   X   X   X       X               X
GNLCC     FWS     30   F10AP00289   X   X   X   X       X       X       X            X
GNLCC     FWS     31   F10AP00289       X   X   X       X               X            X
GNLCC     FWS     32   F11AP00120           X   X   X   X               X
GNLCC     FWS     33   F10AC00597                       X
GNLCC     FWS     34   F10AC00605       X   X   X       X               X




                                                                                33
                   Documented Deficiencies (see Table Key)
    LCC   Bureau    #   Agreement        A   B    C   D    E     F    G    H   I   J   K   L    M
GNLCC     FWS      35   F10AC00586           X    X   X          X                 X   X        X
GNLCC     FWS      36   F10AC00594           X    X   X          X                 X
GNLCC     FWS      37   F11AC00385           X    X   X    X     X                 X
GNLCC     FWS      38   F10AC00587           X    X   X          X                 X
GNLCC     FWS      39   F11AC00392       X   X    X   X          X                 X       X
GNLCC     FWS      40    F11AP0122           X    X   X          X                 X
 DLCC     USBR     41   R11AP81526
 DLCC     USBR     42   R11AP81529
 DLCC     USBR     43   R11AC81531
 DLCC     USBR     44   R11AC81532
 DLCC     USBR     45   R11AP81527
 DLCC     USBR     46   R11AP81528
 DLCC     USBR     47   R11AP81530

Key
            Review checklist missing, incomplete, or less extensive than
A           DOI Checklist.
B           Inadequate/incomplete budget analysis.
C           Inadequate business risk analysis.
D           Incorrect program authority.
E           Inadequate or missing sole source justification.
F           Funding opportunity not posted to Grants.gov.
G           Inadequate time and criteria.
H           Deliverables and schedules missing or inadequate.
I           Inadequate justification for vehicle chosen.
J           Determination to use grant or cooperative agreement not
            clearly stated.
K           Inconsistent CFDA numbers between agreement and
            proposal.
L           SF-424 out of date, missing information, or having incorrect
            information.
M           Monitoring related issues, such as missing progress and
            financial reports.
SRLCC       Southern Rockies Landscape Conservation Cooperative
APPLCC      Appalachian Landscape Conservation Cooperative
NPLCC       North Pacific Landscape Conservation Cooperative
SALCC       South Atlantic Landscape Conservation Cooperative
GNLCC       Great Northern Landscape Conservation Cooperative
DLCC        Desert Landscape Conservation Cooperative




                                                                                           34
Appendix 5: Questioned Costs
  Agreement No.   Agreement Amount      Questioned Cost


F11AC00223                 $2,032,418             $182,947




                                                          35
Appendix 6: U.S. Fish and Wildlife
Service Response
The U.S. Fish and Wildlife Service response follows on page 37.




                                                                  36
                   United States Department of the Interior
                                  FISH AND WILDLIFE SERVICE
                                          Washington, D.C. 20240

In Reply Refer To:
FWS/SCI-MIB/054333                              APR 2 6 2013

Ms. Kimberly Elmore
Assistant Inspector General for Audits, Inspections, and Evaluations
U.S. Department ofthe Interior
Office of the Inspector General
1849 C Street, NW, MS 4428
Washington, DC 20240



Dear Ms. Elmore:

Thank you for providing the U.S. Fish and Wildlife Service the opportunity to respond and comment on
the draft audit report: US. Department of the Interior's Climate Change Program: Landscape
Conservation Cooperatives.

You will find our response to the findings and our plan to address those findings attached to this
document.




                                                          R chel   Jacobso~
                                                            incipal Deputy Assistant Secretary for
                                                          Fish and Wildlife and Parks

Enclosures




                                                                                                     37
                                     U.S. Fish and Wildlife Service
                                     Response to Recommendations
                                              May 6, 2013

                                Office of the Inspector General
  U.S. Department of The Interior's Climate Change Program: Landscape Conservation
              Cooperatives DRAFT Report No.: ER-IN-MOA-0015-2011



                                        Overall Comments


Please insert the following statement in both the Results in Brief (Page 1) and Introduction (Page
2) to provide the proper context for the findings presented, and to reflect the current practices in
place.

       Insert the following text in italics in both places cited: This audit focused on financial
       assistance transactions that occurred in fiscal years 2010 and 2011. Since that
       timeframe, and in response to the DOl Financial Assistance Management Review of
       August 2009, the Service has made significant progress in enhancing its internal controls
       over financial assistance (see Attachment 1, DOl FAMR CAP, and Attachment 2, "U.S.
       Fish and Wildlife Service, Issuing a New Financial Assistance Award Guidance"). Many
       of the findings and recommendations, therefore, pertain to this earlier timeframe and are
       not reflective of current, more rigorous practices in place.

Also, in order to respond to several of the recommendations as noted below (Recommendations
1, 2, 3, 5, 6, 9, and 10), the Director will send a memo to Regional Directors and Assistant
Directors re-emphasizing to staff the requirement to follow the grant and cooperative agreement
regulations, policies, and guidance issued as a result of the August 2009 Department of the
Interior Financial Assistance Management Review corrective action plan. The memo will be
sent on May 31,2013.

                             Recommendation-specific Comments


Recommendation 1: Ensure that public notice and competition are performed in accordance
with the applicable laws, regulations and DOl guidance.

       Response: We concur with this recommendation. On May 11, 2012, the Service
       released "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award
       Guidance" (Attachment 2). The guidance provides mandatory steps to be completed
       before a new award is released and addresses this topic in Steps 3 and 5. See Overall
       Comments above.




                                                                                            Page   11
                                                                                                   38
       Target Date: May 31, 2013 to issue memo re-emphasizing existing Service guidance,
       including "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award
       Guidance" (Attachment 2).

       Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service


Recommendation 2: Ensure postings of grants and cooperative agreements on Grants.gov are
available to the general public commensurate with the Government average enabling fair and
open competition.

       Response: We concur with this recommendation. On May 11, 2012, the Service issued
       "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award Guidance"
       (Attachment 2) which provides mandatory steps to be completed before a new award is
       released and addresses this topic in Step 5. Step 5 provides guidance on postings of
       grants and cooperative agreements on Grants.gov, specifically in Step 5B pertaining to
       "Discretionary Programs" (applicable in the case ofLCCs), Step 5C pertaining to
       "Cooperative Agreements," and Step 5D pertaining to "Application Package and Notice
       ofFunding Availability (NOFA)/Application Instructions." These specific procedures
       are in place to ensure both fair and open competition. In addition, see Overall Comments
       above.

       Also, the Service awaits OMB's final policy on Grants.gov posting as part of the Reform
       of Federal Policies Relating to Grants and Cooperative Agreements (OMB-2013-0001-
       0001) and intends to comply fully with that OMB policy when it is released. Although
       the Service does not have in place at this time a 30-day Grants.gov posting policy,
       posting of certain relevant grant information far exceeds the 30 day timeframe. For
       example, a year-long national funding opportunity, F12AS00184 (see Attachment 3),
       posted on June 4, 2012 for CFDA 15.669 (Cooperative Landscape Conservation) and
       CFDA 15.670 (Adaptive Science) remains open today and will be renewed annually.

       Target Date:   May 31,2013 to issue memo re-emphasizing existing Service guidance.

       Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service


Recommendation 3: Limit use of sole-source awards to increase competition and transparency.

       Response: We partially concur with this recommendation. In some instances single
       source awards are the only option for LCC projects (e.g., awards to States). Therefore,
       we do not concur with the portion of this recommendation to limit the use of single
       source awards. We do concur with the portion of the recommendation to increase
       competition, where feasible, and increase transparency -that awards should be competed
       where possible and when in the best interest ofthe Service. On May 11, 2012, the
       Service issued "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance
       Award Guidance" (Attachment 2) which provides mandatory steps to be completed
       before a new award is released. This topic is addressed in Step 4. Step 4 addresses the
                                                                                       Page   I2
                                                                                            39
      justification of single source awards and states the Service's "program office must make
      sure that all discretionary financial assistance awards that will be issued without
      competition (also known as single source awards) are justified according to the
      Department policy (505 DM 2, Section 2.14)." Step 4 states further, "For discretionary
      awards to be issued without competition, the program office must document in writing all
      single source determinations, regardless of award amount, and post funding opportunities
      for single source awards for $25,000 or more on Grants.gov." Step 5B in Attachment 2
      also further addresses the posting requirements for single source awards. In addition, see
      U.S. Fish and Wildlife Service, Notice oflntent (NOI) to Award to a Single Source
      without Competition form (Attachment 4) and the Overall Comments above.

      Target Date: May 31,2013 to issue memo re-emphasizing existing Service guidance.

      Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 4: Resolve the questioned costs.

      Response: We partially concur with this recommendation. The Wildlife Management
      Institute (WMI), Virginia Tech (VT), and University of California-Davis (UC-Davis)
      agreements were correctly classified as "financial assistance" (not contracts) because
      their purposes meet the public good of supporting the mission of the LCCs, a group
      broader than the Service which is made up of Federal agencies, State governments, and
      non-profits (see Attachments 5 and 6). The mission and targets of the LCCs are not
      solely those of the Service's. Therefore, the agreements with WMI, VT, and UC-Davis
      were not funded in order to meet Service-specific needs.

      Subsequent to the OIG's visit to the Region 5 office, DOl solicitor review was obtained
      on the issue of using contracts versus cooperative agreements. The DOl solicitor
      response, dated July 11, 2012, (see Attachment 7) upheld the determination by the
      Service that the cooperative agreement was the correct award instrument.

      We agree that the budget documentation with WMI indicates that indirect cost was
      inaccurately assessed. We are coordinating with WMI to get detailed information about
      the 10% service surcharge to determine whether payback is required. (See Attachment 8,
      indirect cost rate and additional detailed budget and expenditure documentation.)

      We do not concur with the recommendation regarding questioned costs in the cases of
      VT and UC-Davis. We find the VT agreement is correctly classified as a cooperative
      agreement through the Southern Appalachian Cooperative Ecosystems Studies Unit. We
      also find the UC-Davis agreement is correctly classified a cooperative agreement through
      the Cooperative and Joint Venture Agreement of the California Cooperative Ecosystems
      Studies Unit. Attachment 9 provides the Memorandum of Understanding (MOU) for the
      Cooperative Ecosystem Studies Units (CESU) Network among several federal
      government agencies, including the Service. The MOU (see Attachment 9) outlines the
      Service's substantial involvement through cited authorities for engagement, membership
      of the CESU Council for which the Service participates, and roles and responsibilities of
                                                                                        Page   I3
                                                                                            40
       the CESU Council which includes not only a broad basis for the Service's substantial
       involvement, but also specific responsibilities of Working Groups to be "formed as
       needed to plan, coordinate, and facilitate the implementation of actions ... "

       Target Date: December 31, 2013- communicate corrective action, if any, required from
       WMI.

       Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 5: Use the appropriate legal instrument for funding financial awards.

       Response: We concur with this recommendation. On May 11, 2012, the Service issued
       "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award Guidance"
       (Attachment 2) which provides mandatory steps to be completed before a new award is
       released. This topic is addressed in Steps 1 and 2. See Decision Diagram, Selection of
       Instrument Type (Attachment 10). Also, see Overall Comments above.

       Target Date: May 31, 2013 to issue memo re-emphasizing existing Service guidance.

       Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service


Recommendation 6: Consider whether legal reviews are needed before committing funds.

       Response: We concur with this recommendation.

       Although we agree that awards that meet the definition laid out in 505 DM 2/Service
       new award guidance are good candidates for legal review, it is not a requirement. The
       Director will require each Regional Director to identify a representative from the
       Regional Office of the Solicitor for consultation on all LCC-related matters, not only to
       provide financial assistance advice but programmatic advice as well.

       We will also reinforce the guidance for legal review found in "U.S. Fish and Wildlife
       Service, Issuing a New Financial Assistance Award Guidance" issued May 11, 2012
       (Attachment 2) which provides mandatory steps to be completed before a new award is
       released and addresses this topic in Step 6 E. See Overall Comments above.

       Target Date:
       May 31, 2013: to issue memo re-emphasizing existing Service guidance.
       May 31,2013: Director's memo requiring Regional Directors to identify Regional
       Solicitor points of contact for LCC matters.
       December 31, 2013: Regional Directors identify a Regional Solicitor for LCC matters.

       Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service



                                                                                          Page     14
                                                                                                 41
Recommendation 7: Ensure that appropriate procedures are in place to address potential
conflicts of interest.

       Response: We concur with this recommendation. The Service needs to utilize a variety
       of appropriate approaches to managing LCC-related financial assistance awards
       depending on the need. For example, awards to state agency partners in support of their
       ability to effectively participate in the LCC (i.e., capacity grants), will likely be single
       source grants. In such cases, appropriate justification (Attachment 4) will need to be
       developed and included in the grant files. The Service will develop and issue guidance
       on these procedures, including the identification of situations that pose potential conflicts
       of interest. We will encourage Service LCC participants to seek review from their
       Regional ethics official when faced with a situation that may pose potential conflict of
       interest.

       Target Date: December 31, 2014

       Responsible Official: Gabriela Chavarria, Science Advisor to the Director


Recommendation 8: Adopt USBR's risk assessment form.

       Response: We do not concur with this recommendation. The Department released DIG
       2011-03, Financial Assistance Monitoring Protocol on September 13, 2011. Although
       the policy provided a Department-wide checklist and risk assessment form, bureaus
       commented that the risk assessment form required major modifications. The DOl agreed
       to revise the policy to incorporate bureau input. DOl anticipates that the revised risk
       assessment tool will be ready for bureaus to use by Fiscal Year 2014. The Service will
       use DOl's risk assessment tool when it becomes available.

       Target Date: December 31, 2015

       Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 9: Guarantee and independently verify that appropriate budget analyses and
risk assessments are performed and accurately documented in the award file and, where
applicable, that proper notifications are made and documented.

      Response: We concur with this recommendation. On May 11, 2012, the Service issued
      "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award Guidance"
      (Attachment 2) which provides mandatory steps to be completed before a new award is
      released and addresses this topic in Step 6 A-D, and I. The Service will develop its own
      Financial Assistance Risk Assessment Checklist. See Overall Comments above. We will
      require recipients to submit a budget sheet with sufficient information for project officers
      to make a determination on costs and benefits of the project. Our responses to
      Recommendation 10 (checklist), Recommendation 11 (second level review), and
      Recommendation 15 (training), below, will also strengthen this corrective action.
                                                                                            Page   I5
                                                                                                   42
       Target Date: May 31,2013 to issue memo re-emphasizing existing Service guidance.

       Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 10: Direct the use of the DOl standardized checklist across all LCCs.

       Response: We partially concur with this recommendation and request it be re-stated as
       follows in italic text: Direct the use of the Service's checklist which incorporates all
       elements of the DO! standardized checklist.

       DOl's Financial Assistance Agreement Review Sheet outlines general categories of
       actions which have been found to be too vague for Service staff that review grant and
       cooperative agreements as a collateral duty or are new in financial assistance. To
       respond to these concerns, we expanded the general actions in the DOl checklist and
       created our own Checklist for New Financial Assistance Awards. The Service checklist
       covers all of the items in the DOl checklist (Attachment 11), and more clearly describes
       the authorities behind and expectations for pre-award actions. In this way, the checklist
       is tailored to better meet our business and operational needs for administering financial
       assistance awards and may be useful to other bureaus within the Department. In addition,
       see Overall Comments above.

       Target Date: May 31, 2013 to issue memo re-emphasizing existing Service guidance.

       Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 11: Require all noncompetitive discretionary grant awards be reviewed at a
level above awarding officials.

      Response: We concur with this recommendation. On May 11, 2012, the Service issued
      "U.S. Fish and Wildlife Service, Issuing a New Financial Assistance Award Guidance"
      (Attachment 2) which provides mandatory steps to be completed before a new award is
      released and addresses this topic in Step 11. In addition, on October 11, 2012 the Service
      released a Signature Authority policy (Attachment 12) that requires a second level review
      acknowledging the reviewing official and signatory should not be the person who
      administers the grant. We will develop a single standard methodology that Headquarters
      and the Regions will follow that will be communicated through a memo from the
      Director to Headquarters and the Regions mandating its use.

      Target Date: December 31, 2013

      Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service




                                                                                         Page   I6
                                                                                             43
Recommendation 12: Perform periodic management reviews of financial assistance processes
to ensure that controls are properly enforced and effective.

       Response: We concur with this recommendation. The Division of Policy and Directives
       Management (PDM) will perform targeted internal control reviews on a four-year cycle
       beginning FY 2015. Results will be reported to the Director and to the Division of
       Financial Management (PFM) in the Department. In addition, the Branch ofFinancial
       Assistance Policy and Oversight is conducting a Service-wide A-123 Appendix A review
       of cooperative agreements this year, testing samples Service-wide.

       Target Date: September 30, 2015

       Responsible Official: Denise Sheehan, Assistant Director, Budget, Planning and Human
       Capital


Recommendation 13: Encourage closer coordination and communication of financial
assistance requirements between LCC coordinators and grants management personnel.

       Response: We concur with this recommendation. However, we recommend changing
       "LCC coordinators" to "appropriate FWS LCC staff'. Not all LCC coordinators are DOl
       personnel.

       The Director will require through a memo that each Region has a memorandum of
       understanding that outlines responsibilities for project officers and support staff similar to
       the one that exists in Headquarters (Attachment 13). The memo will outline
       responsibilities regarding access to files for both program and fiscal/administrative staff.

       Target Date: Regional Directors will submit memorandum of understanding to Director
       by December 31, 2013.

       Responsible Official: Dan Ashe, Director ofthe U.S. Fish and Wildlife Service


Recommendation 14: Provide LCC coordinators access to full grant files.

      Response: We partially concur with this recommendation. We recommend changing
      "LCC coordinators" to "appropriate FWS LCC staff'. Because not all LCC coordinators
      are DOl personnel, and some might be outside the federal government, we must be
      mindful of confidentiality and Privacy Act requirements as appropriate.

       See identified corrective action for Recommendation 13 above. Each Region will
       determine its best process for file sharing, while considering Privacy Act and confidential
       information, and report back to Headquarters upon completion.

       Target Date: December 31,2014


                                                                                             Page   I7
                                                                                                 44
      Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service


Recommendation 15: Develop and standardize training for LCC coordinators who serve as the
grants officer's technical representatives.

      Response: We concur with this recommendation. However, we recommend changing
      "LCC coordinators" to "appropriate FWS LCC staff'. Not all LCC coordinators are DOl
      personnel.

      Signature authority policy requires training for signatories of the notice of award letter.
      We will also require that project officers, reviewers and approving authorities attend by
      no later than December 31, 2015 basic financial assistance training provided by the
      Wildlife and Sport Fish Restoration Training group. The "Basic Financial Assistance I
      Service-Wide Basic Grants and Cooperative Agreements Course" is available throughout
      the year in various locations." By May 31, 2013, the Director will send a memo to
      Headquarters and the Regions mandating that (1) training be received by December 31,
      2015 and (2) refresher training be completed every 3 years.

      Target Date: December 31, 2015

      Responsible Official: Dan Ashe, Director of the U.S. Fish and Wildlife Service




                                                                                         Page   I8
                                                                                                45
Appendix 7: Status of
Recommendations
Recommendations                  Status                  Action Required
                                                No further OIG action is required.
                                                    The recommendations will be
1, 2, 3, 4, 5, 6, 7, 8, 9,   Resolved but not
                                                referred to the Assistant Secretary
   11, 12, 13, 14, 15         implemented
                                                for Policy, Management and Budget
                                                  for tracking and implementation.
                              Resolved and      No further response to the OIG is
           10
                              implemented                     required.




                                                                                46
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
